              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




  Audit Report

Selected Aspects of the East
Tennessee Technology Park's Security
Clearance Retention Process




DOE/IG-0779                                 October 2007
                              Department of Energy
                                   Washington, DC 2 0 5 8 5

                                    October 18, 2007



MEMORANDUM FOR THE%SECRETARY

FROM:
                           Inspector General

SUB.1 ECT:                 INFORMATION: Audit Report on "Selected Aspects of the
                           East Tennessee Technology Park's Security Clearance Retention
                           Process"

BACKGROUND

The Department of Energy uses a formal process of security clearances to help prevent
unauthorized access to sites and facilities that niaintain or store classified information
and/or special nuclear material. As part of this process, security badges are issued to
indicate whethcr the individual possesses a security clearance and, as a consequence,
whctlier access to agency facilities is permitted. In addition, the Department maintains a
Central Personnel Clearance Index to track security clearance information. In virtually
all circumstances, policy requires that security clearances be terminated when an
individual ends their association with the Department. A limited exception to that policy
exists for contractor employees that arc to be reemployed within three months. Closely
controlling security clearances and restricting access to facilities to authorized individuals
arc essential to protecting the Department's valuable security and property assets.

In May 2007, the Oftice of Inspector General issued a report on Thr D e p ~ r t r n e t i tAzltlit
                                                                                            ~~
Resolutiotl ~rtrclFc~llolt~-~rp
                            Process (DOEIIG-0766). This audit disclosed, among other
things, that security clearances at the East Tennessee Technology Park (ETTP) were
being retained well beyond the three-month window allowed by Departmental policy.
Because of the potential for terminated employees who retained active clearances to
improperly access Departmental facilities, we initiated this audit to determine whether the
practice of maintaining active security clearances at ETTP for terminated en~ployeeswas
appropriate and/or necessary.

RESULTS OF AUDIT

Our review disclosed that security clearances for terminated employees at ETTP were
inappropriately and unnecessarily retained beyond the period permitted by Departmental
policy. During the recently completed audit cited above, we identified at least 20
individuals who had been permitted to retain security clearances for more than 6 months
after the date their employment with ETTP ended. Our current review identified 54 other
former employees who, as of June 2007, had not had their security clearances terniinated,
as required.
                                              2


In spite of a specific requirement that permits retention of security clearances for no more
than three months following termination, and without consulting with Headquarters
Personnel Security officials, the Department's Oak Ridge Office (ORO) granted the
ETTP site contractor – Bechtel Jacobs Company LLC – permission to initiate a 180-day
"security clearance hold list." The creation of this security clearance hold list effectively
allowed individuals who were no longer employed at ETTP to improperly retain security
clearances. These retained security clearances remained active in the Central Personnel
Clearance Index and could have permitted former contractor employees to access
facilities across the complex without authorization. Such access increases the risk of
malicious damage to Departmental assets. As noted in our January 2006 OIG report on
Security Clearance Terminations and Badge Retrieval at the Lawrence Livermore
National Laboratory (DOE/IG-0716), failure to properly control security clearance
terminations has the potential to degrade the Department’s security posture.

After completion of our audit field work, the Office of Departmental Personnel Security
(ODPS), within Office of Health, Safety and Security (HSS), notified us that they
conducted a survey and discovered that two National Nuclear Security Administration
(NNSA) sites – the Los Alamos and Sandia National Laboratories – had deviations in
place, some of which addressed provisions for maintaining clearances in an active status
subsequent to termination. ODPS determined these were not acceptable applications of
the deviation process and was preparing a memorandum to NNSA conveying this
determination.

The Department recently established the ODPS to strengthen and elevate the visibility of
its personnel security program and to help ensure the consistent and effective
implementation of personnel security programs Department-wide. We view this
organizational change as a positive step that, if successfully implemented, should help
ensure that ETTP and other sites are not circumventing personnel security program
requirements. To aid the Department in this effort, we have made several
recommendations designed to improve the security clearance termination process.

MANAGEMENT COMMENTS

ORO and the HSS provided comments to the draft report and concurred with the
recommendations. In particular, ORO management noted that the 180-day variance had
been rescinded and that outstanding clearances were being terminated. Management’s
comments have been included verbatim as Appendix 3.

Attachment

cc: Deputy Secretary
    Chief of Staff
    Under Secretary of Energy
    Administrator, National Nuclear Security Administration
    Chief Operating Officer, Office of Science
    Assistant Secretary for Environmental Management
    Director, Policy and Internal Controls Management, NA-66
REPORT ON SELECTED ASPECTS OF THE EAST 'TENNESSEE
TECHNOLOGY PARK'S SECURITY CLEARANCE RETENTION
PROCESS



TABLE OF
CONTENTS

    East Tennessee Technoloqy Park's Securitv Clearance Retention
    Process

    Details o r Finding ......................................................................................................I

                                 ...........................................................................3
    Kccommendations and Con~ments..


    Appendices

    1 . Objective, Scope, and Methodology .....................................................................5

    2. Prior Kcports ........................................................................................................
                                                                                                                          6

    3. Management Comments .......................................................................................
                                                                                                                7
ETTP'S SECURITY CLEARANCE RETENTION PROCESS

Security Clearances   Security clearances for terminated eniployces at the East
                      Tennessee Technology Park (ETTP) were inappropriately
                      and unncccssarily held active beyond the timeframe
                      permitted under Department of Energy (Department)
                      policy. In our May 2007 report on The Deprrr-tr)le)lt!~Audit
                      Kesolzctiotl ~ i t 1F(>llo\t)-lil>
                                          ~1           Yroce.ss (DOEIIG-0766), wc
                      identified at least 20 individuals who had retained security
                      clearances in the Central Personnel Clearance lndex (CPCI)
                      system for o\.er 6 months after their tenninatio~~  from
                      ETTP. Our curre~ltrcview identified an additional 54
                      contractor or subcontractor employees who, as of Sunc
                      2007, had been terminated from ETTP for at least 3 months
                      and whose clearances remained active. The tablc bclow
                      suniniari~esthe extent of retained security clearances and
                      the rationale for the termination of each of the 54
                      employees.


                                     Number of
                        Reason for   Terminated    Clearance             Contractor/Sub-
                       Termination   Employees      Type Q/L               Contractor
                       La) off        31           8 Q 33 1.
                                                        -




                                                  1 10 41-
                                                                       8 Contractor


                                                                      3 ('ontractor
                                                                                        -   33 Suh


                                                                                            2 Sub
                                                                                                      1
                       Force
                       NO Reason                   00-71.              I (.ont.ictor        I S U ~

                       Family                      0 0 - I I.          0 ( 'ontractor       1 Sub
                       Emergency

                       Not Hirecl                  10       01-




                            -
                                                                      0 Contractor          I Sub


                      Ellcl* 1
                       ('uthacls
                                                              I       0O      a    o        I   S"T
                                                                                                  ,
                         ,
                       ('ontract
                         PI
                      Fo~untarll~
                                      ---
                                      1            0Q       I 1,
                                                                                        -

                                                                       I C'onlr~cto~0 Sub
                       Quit




                      As illustrated in the table, 111ostof thcse eniployces werc
                      terminated from ETTP either through layoffs or involuntary
                      rcduction-in-force. Additionally, 12 of the 54 employces
                      maintained "Q" clearances, the highest level of security
                      clearance provided to Dcpartniental employees.



Page 1                                                             Details of Findirlg
Security Clearance   S e c ~ ~ r iclearances
                                  ty         werc bcing licld active more than three
Hold List            months after employees were terminated because the
                     Department's Oak Ridge Office (ORO) granted the ETTP
                     site contractor Bechtcl Jacobs Company LLC (Bechtel
                                    -



                     Jacobs) permission to initiate a 180-day "security clearance
                     hold list." This hold list was designed to allou Bechtel
                     Jacobs and their s~~bcontractors   to rehire terminated
                     personnel uithout having to take action to rcinstate
                     clcarances. According to an official from the Office of
                     Dcpartmental Personnel Sccurity (ODPS), however, field
                     officcs do not have the authority to approve the retention of
                     sccurity clearances for terminated personnel beyond the
                     thrcc-month maximum permitted by Departmental policy.
                     Officials from that same office told us that thcy were not
                     aware of the dcviation which rcsulted in the crcation of thc
                     "hold list." Based 011their records, neither the original
                     dcviation granted in 2004 by ORO, nor the extension in
                     2007, wcre subjected to more extensive rcviews at ODPS
                     or its predecessor organi~ation,as required.

                     O R 0 maintains that the deviation and tlic resultant 180-day
                     hold list system in place wcrc handled appropriately and
                     were consistent with Dcpartmental policy. Orficials cited a
                               s ethc Department's Personnel S e c ~ ~ r iManual
                     c l a ~ ~ in                                         ty     that
                     allows the local sccurity authority to adjust thc timeframcs
                     that clearances may be held activc fhr intiividuals on leave
                     of abscnce or extendcci leave. How C \ er, it is important to
                     note that this clause docs not pertain to tcrn~inated
                     eniployees s ~ ~ asc hthe 53 identified in the abovc chart who
                     are the focus of this report. O R 0 also indicatccl Ihat the
                     impact of terminated employees niai~ltainingactivc
                     clcarances in thc CPCI was minimized b c c a ~ ~ othcrse
                     protective controls, such as the retriei al of badges and thc
                     dcbr~ciingof employees at thc time of cmploymc~~t
                     termination, were in place. Nevcrtheless, these actions
                     would not have prevcnted acccss to other sites and perhaps
                     not evcn to other Oak Ridge locations sincc the security
                     clearance itas still active in CPCI.

                     Finally, officials from thc ODPS indicated that there was
                     no reason for the ETTP 1 80-day hold list. Under
                     Department policy, reinstatcnient of a clearance within a
                     1 SO-day timcframe is just a matter ofverirying the prct,ious
                     clcarance and ha~aingthe individual sign a new agreement.
                     In fact, in A ~ ~ g u2007,
                                          sl    the O R 0 Acccss Authori~ation
                     Branch had an averagc time of two to thrcc days to
                     reinstate a clearance oncc the paperwork had bcen received.


Page 2                                                        Detail of   ind dings
Control Over Security   As implemented, tlie d c iatio~i
                                                     ~       in place at ETTP, which
Clearance Termination   allows sccurity clcarances to be held active for 180 days
                        after an employee's termination, poses an unnecessary
                        sccuri ty vulnerability to tlie Depa~t~iierit     and its facilities.
                        Proper controls over security clcarancc tcrrninations are
                        necessary to prcvcnt ~ ~ n a u t l i o r i ~access
                                                                     c d to information
                        and facilities, and dccrease tlie risk of malicious dariiagc to
                        Departmental assets. As confirmed by an official from tlic
                        ODPS, unauthorired individuals could gain access to
                        Department facilities i f their security clearances were not
                        properly tcrniinatcd in thc CPCI systc~ncven if their
                        badges had been retrieved. A temporary badgc could be
                        obtained and access granted if a site security officcr at a
                        given access point verified tlie activc clcarancc witli
                        information from the CPCI. As such, it is imperative that
                        all Dcpartnicnt security clcarancc tcrrninations occur in
                        accordance u ith Departmental requirements. Prcvious
                        Office of Inspector General inspections have found issues
                        witli security clearance temiinations being timely at Sandia,
                        Lawrcncc Livemiore, a~idLos Alamos National
                        Laboratories.


RECOMMENDATIONS         Wc recommend tliat tlie Manager, ORO, in cori.j~rnction
                        with tlie ODPS:

                                1 . Rescind thc deviation in place tliat allows
                                    Beclitel Jacobs to hold terminated employees'
                                    security clcaranccs activc fhr up to 180 days;
                                    and,

                                2. Ensure that all current active sccurity clearances
                                   for individuals whose employment lias been
                                   ter~ninatcdfor over three months be
                                   immediatcly terminated in tlie CPCI.

                        We fi~rtlierrecommend that tlic ODPS:

                                3. Determine whether otlicr Departmental sitcs
                                   currently have similar practices of holding
                                   security clearances activc for more than tlirce
                                   months after termination.




Page 3                                        Recommendations and Comments
MANAGEMENT   O R 0 and the O f i c e of' Health, Safety and Security (HSS)
REACTION     provided comments to the draft report and c o n c ~ ~ r r ewith
                                                                         d
             the recommendations. O R 0 stated tliat tlie 180-day
             variance was rescincled on Septcniber 5 , 2007, with an
             cf'fcctivc date ocseptember 30, 2007. In addition, O R 0
             r e q ~ ~ e s t ctliat
                               d Bechtel .lacobs submit terniination
             statements to their o f i c e as soon as possible for those
             employees whose employment has been terminated for
             over three months. O R 0 indicated that all clcarances
             associated with the 180-day variance have been terminated
             and that these actions were completed on September 28,
             2007.

             ODPS polled other Departmental personnel security offices
             to determine il'they hacl deviations in place to allow
             holding security clearances over tlirce months after
             termination. While ODPS Sound many sites did not deviate
             fi-om tlie personnel security directives in any way, they did
             find two National Nuclear Security Administration (NNSA)
             sites tlie Los Alamos and Sandia National Laboratories
                  -                                                       -



             tliat had a total of l'our de\ iations in place, three of which
             addressed provisions for maintaining clcarances in an
             active status subsequent to termination. ODPS has found
             tliat these are not acceptable applications ol'tlie deviation
             process and is preparing a memorandum to tlie NNSA
             S e n ice C'cntcr to inf'orni them ol'tliis determination.


AUDITOR      Comments from O R 0 and HSS acknowledged that
COMMENTS     changes were needed in tlie management controls at the
             Department to improve tlie security clearance retention
             process. Management's completed and planncd actions, as
             stated above, were responsive to tlie report's
             recommendations.

             Management's comments are included ~ e r b a t i nas~
             Appendix 3.




Page 4                                                        Comments
Appendix 1

OBJECTIVE     To determine whether the practicc ofniaintaining active
              security clearances ar the East Tcnncssce Technology Park
              (ETTP) for terminated employees was appropriate andlor
              necessary.


SCOPE         We perfbrnied tlie audit Sroni . l ~ ~ 2007
                                                     n c tlirougli August 2007
              and obtained data fi-om Headquarters, tlic Oak Ridge Office
              (ORO) and the ETTP in Oak Ridge, Tenncsscc.


METHODOLOGY   To accomplish our objective, we:

                     Rc\ icwed applicable Department of Energy
                     (Department) policies and proccdures implcniented at
                     tlie Departnicnt;

                     Held discussions m it11 Headquarters and sire officials
                     regarding security clearance terminations and
                     d e iations;
                          ~

                     Analyted ETTP's 180-day security clearance liold list
                     to dctcrmine the number oTemployees who liaci been
                     terminated for niorc than 3 montlis; and,

                     Pcrlbrmcd comparative analysis of E.1 TP's 1 80-day
                     security clearance hold list and tlie Department's
                     Central Personnel Clearance Indcx (CPCI) to confinii
                     tliat teniiinated cniployecs on the liold list still had
                     active clearanccs in the CPCI.

                 The audit was co~ici~~cted     in accordancc with generally
                 accepted Government auditing standards for performance
                 a ~ ~ d iand
                            t s included tcsts of intcrnal controls and
                 compliance \s.itli laws and reg~~lations     to tlie extent
                 necessary to satisry tlie audit objcctive. Accordingly, we
                 assessed the signillcant internal controls and perlhrmance
                 nicasures established ~ ~ n dtlie c r Ciovcrnment Performance
                 and R c s ~ ~ lActt s of 1003. B C C ~ LoI~Sl reviei~
                                                               r~       was limited,
                               l d necessarily have disclosed all internal control
                 i t \ v o ~ ~ not
                 deficiencies tliat may liavc existed a1 tlie time of our audit.
                 Wc obtained and re\ ie\\cd c o m p ~ ~ tgenerated
                                                             cr          data in
                 order to acliievc our audit objective. We pcrfcmned
                 procedures to validatc tlie reliability of the inl'ormation as
                 necessary to satis@ our audit objective.

                 Management elected lo naive the elit conrercncc

Page 5                            Objective, Scope, and Methodology
Appendix 2

                                              APPENDIX 2

                                          PRIOR KEPOR'I'S

Office of Inspector General Reports

 The. I ) ~ ~ ~ I ~ ~ I Y.' - I:lrrcli/
                                 I I ~ ~ Ke~.solrr/iotl
                                         ~III         rrtlrl J;i,llorz~-rrp1'1.oc.c.s.s (DOEIIG-0700, May 2007).
 l'his audit found that the Department o f Energy (Department) had made significant
 impro\.cmcnts to many aspects o f its follow-LIPsystem. In particular, it had ensi~rcd
 Illat target closure dates were established for all agreed-upon rccommendations and
 tliat, in most cases, audit rccommendations wcre closed in a timely manner. However,
 we Iouncl that, in some cases, agreed-upon recommendations had been closed, hut
 corrcctivc actions had either not been completed or were ineffective. Our review of
 " c l o s c ~ rccotii~iie~idatio~is
               l~~                         contained in six selected reports found significant
 continuing management issilcs relating to: ( 1 ) ensuring that employee hadgcs werc
 returned and scci~rityclcaranccs wcre terminated as l-eqi~ired;( 2 ) tracking visits and
 assignmc~itsby I'orcign nationals; (3) consolidating di~plicativcnuclear material
 tracking systems; and, (3)resolving information tcclinology seci~rity\\,caknesses.

 llrrrlgc>Kc~/t-ic~~~111
                    r11i[l,Ye>[.rrt-r/\.
                                     ('lc~rr~r1~~c3
                                               Tor~~ri~l(r/iot~
                                                            (11 Siitlrlirr Nlr/iotr[rII,~rt~ot-rr/ot~~~-
 N c ~ tMe~ic.o
        '       (D0E:IG-0723, April 2000). This inspection concli~dedthat the internal
 controls at the Sandia National L>aboratory-New Mexico (Sandia) wcrc not adecli~atcto
 cnsurc tliat, in accordance b i t h applicable policies and p r o c e d ~ ~ r csecurity
                                                                                s,       haciges
 assigned to tcrminati ng Sandla and subcontractor employees wcre rctric\,ed at tlic time
 o f departure 01-that security clearances of terminating Sandia and subcontractor
 cmployccs wcrc terminated in a timely manner. Additionally, tlicy Ih~lndemployees
 that (lid not ha\ c complctc Security Termination Statements, as required. -PIiits, there
 was no assurance that these in&\ iduals had received the required Sccurity Termination
 Briefing a1 the timc of their termination.

 ,Se~c,rrt-r/.\~('lc~rt-[rt~c~o
                            72~t.t11itrrr/iot1,s
                                            [111d Il~rrlgc~
                                                          Rc~/~*ic~\-[rl
                                                                  (11 1 / 1 0 12rrrz~t,c~~i(~c~
                                                                                         l,i~~c~t~t~~or~~
 Nrr/iot~rr/Lrrhot.rr/ot:y (1)OEIIG-07 10, January 2000). Tliis inspection concli~dcdthat
 the 1,awrcncc l,i\ ermore National Laboratory's interrial control structure was not
 adequate to cnsurc that sccurrty badges were retrieved at the timc oPcmploycc
 departure 01.that s e c i ~ r ~clearances
                                  ty            o f departing employccs werc terminated in a
 timely manner. Additionally, tlicy foi~ndterminated cmployees that did not coniplcte
 the rccl~lircdSccurity Termination Statements. Thus, tlierc i t as no assurancc that these
 employees had scccivcd the rcqlrired Sccurity Termination Briefing.

 Sc>c.rrt-i/\.
           trlrrl O1t1c.r l.s,\r/(~.\Rc~ltr~c~tl
                                             lo Orcl-Proc~c~.ssitrg
                                                                 of Enrl~lo\~ec>.s
                                                                               r r ~I<osAltrn1o.s
 Nrr~rollrrll,trho~-rr/ol-\. (DOEIIG-0077, Febrilary 2005). 7'liis inspection found that o i ~ t -
 processing procedures at the Los Alamos National Laboratory ( L A N L ) urerc not
 Ibllowed by more than 3 0 pcrcent oftlie 305 terminating employees inclilded in their
 sample. They I h ~ ~ nthat    d there u a s no assurance tliat, prior to departure, I.AN1,
 tcrminat~ngemployees turned in security badges, completed tlic required Security
 Termination Statement, or. had their security clearances and access author~tationsto
 classilicd matter andlor special nuclear material terminated in a timely manner.

Page 6                                                                                  Prior Reports
Appendix 3




                                            Department of Energy
                                                Washington, DC 20585



                                                 October 3, 2007

         MEMORANDUM FOR GREGORY H. FRIEDMAN
                        INSPECTOR GENERAL

         FROM



         SUBJECT:                 COMMENTS FOR IG DRAFT AUDIT REPORT. "Manayernerit
                                  Controls over Selected Aspects of the East Tennessee Technology
                                  I'ark's Secur-ityClearance Retention Process" (A07PT039)

         The Office of Health, Safety and Security (HSS) has reviewed the subject draft audit report
         provided by the Inspector General's Office on September 1 1,2007. Below is the response to the
         finding and recommendation addressed to HSS.

         Recommendation 3:

         We further reconmiend that the ODPS:

                 Determine whether other Departmental sites currently have s~milarpractices of holding
                 sccunty clearances over three months afier term~nation.

         Response:

         ('oncur- 'I'ht. Oftice oSDcpartmental Personnel Secunty, w~thinHSS, has polled the other
         Departmental personnel security oflices to determine if they have deviations in place to allow
         liolding security clearances over three months afier termination. The offices of Naval Reactors
         (P~ttshurgharid Schenectady jointly), Chicago, Idaho, Richland, Savannah River and
         Headquarters all reported that they do not deviate from the Department of Energy pcrsorlnel
         security directives in any way, including holding clearances active for more than three months
         after termination. The Kational Nuclear Security Adn~inistration(NNSA) Service Center
         rcoortetl that two of their sites (Lus Alamos and Sandia Kational Laboratories) have a total of
         four dcviations in place, three of which address provisions for maintaining clearances in an
         active status subsequent to termination. The Office of Departmental Personnel Security has
          found that these are not acceptable applications of the deviation process and is preparing a
         memorandum to the MVSA Service Center to inform them of this determination.

         If you have any questions, you may contact me at (301) 903-3777 or have a member of your staff
         contact Stcphanie Scott Grimes, of my staff, at (301) 903-4175.

         cc:   Gerald Boyd, SC-OR
               Jeanette Miller. SC-OR




Page 7                                                                 Management Comments
Appendix 3 (continued)




   United States Government                                                                Department of Energy
                                                                                                        Oak Rldge Office

    memorandum
      ~ r r :Ocrobor      2, 2007
    n m v TO
      A-         PM-733:Milla
    "-
     RESPONSE TO DRAFT REPORT,"MAh'AGEMENT CONTROLS OVER SELECTED
                 MPECTS OF THE EAST TENNE6SEE TECXNOLOCY PARK'S SECURITY
                 CLEARANCE RETENTION PROCESSP
           lo:   Rickq R Has, Awistant Inspection Gmcral for Financial, Technology and carp om^^ Audits,
                  05- of Inspector General, IG-34, FORS

                 This is in rrsponk to your Soptembar 11,2007, memorandum, with attached draft report, subject
                 as above. Your momorandurn roquastad that the Oak Ridge Office (ORO)rcviow the
                 i n f o d o n in the draft rwprn-tand pmvide writtan commmtn within 15 working day on the
                 factt pmcntad and cauluoirms reached, as well as any alternative racommendations in solving
                 tho problems discussed in the mpd

                 OR0 w n c m in the m r t recommendations, and our comments am attached. Please feel free to
                 contact me at 865-576-4446 or Pauline Douglas at 865-576-9171 if you wish to discuss this
                 further.




                                                            chisf ~inanciiOfficer



                 cc w/attachmanol:
                 O- J. Malosh, SC-3, FORS
                 S.S.Grimas, HS-1.4,GTN
                 K E. Goodwin, EM-3.1. GTN
                 M. L Lcwir, CF-12,   FORS
                 P. J. Douglas, 0s-20.ORO




Page 8                                                                         Management Comments
Appendix 3 (continued)




                                    p
                     ON DRAFT INSPECTOR GENEaAL REPORT ENTITLED
                 "MANAGEMENTCONTROLS OVER SELE-D     ASPECI'S OF TA&
                EAST TENNESSEE TECBNOLOGY PARK'S SECURITY C L W C E
                                          RETENTION PROCESS'


         R E S P Q N S P , O N S :
         That the m   e-.    Oak Ridge Office, In conjusction with the ODPS:

         1. h c h d the deviation iu place that allows Bechtel Jambs to bold terminatd employeen'
            d t y eltnmnm a&e for up to 180 days.

            Raponme: Concur. The 180day variance was rescinded on Septrmber 5,2007, with en
            effective dab o f Septmber 30,2007.

         2. Enmre thnt all r~rrantactive rmrlty e l e m m a for individeah whose employment ham
            been t c d . t e d for over t h months be lmmedlntely terminated In the CPCI.

            Raponre: Coacm. The Oak Ridge Office rcqudsted that Bbchtcl Jacobs aubmit tuminatian
            eta+      to our office as aoa+ as-poarihle Ern-those amployas whose employment has been
            taminsted for over t h e months. AU c k u m c a associatd with ihe IlO-dayvariance have
            been kmnhted Actions were completed on Saptanbar 28,2007.



         Page 1, I* paragraph (Security Cloamtcs):

                It is unclear whahcr Paducah and Portsmouth pcrsomal (i.8. fonncr BJC ermployacs)
                w m includcd in this numbcr (20 and 54).

         Page 2, 1" paragraph (Security Clearance Hold List):

                This rcqucst for lrcaining clcaramm far 180 days after layoff or project completion for
                specific work groups for Bcchtcl Jacobs Company UC, Oak Ridge, was initially
                approved 0x1 January 34 2004 with a copy going to Headquartem parsonno1 at SO-11,
                SO-23. and SC-1. The updakd exteasion of this vmiwca was approved April 16,2007.




Page 9                                                                   Management Comments
                                                                               I(; Kcport No. DOEIIG-0770

                              ('IISTOMEK RESPONSE F 0 K . M


'flic Ol'licc ol'lnspcclor General Iias a continuing interest in iml>rovingtlic uscli~lncsso f
its products. Wc wish to liiakc our repol-ts as rcsponsivc as possible to our customers'
rccl~~irc~iic~its,;111d,tlicrclbrc, ask that you consitlcl- sharing your thoughts with 11s. On l.hc
back ol'lliis Ibl-111,you nlay suggest improvcmcnts to enhance tlie cl'f'cctivcncss o f ~ I ~ L I I                   . ~
reports. Plcnsc incl~ldcans\vers to the l'ollo\ving cluestions iftliey al-c applicable to you:

I . Wliat ~ ~ d d i t i o ~backgl-o~~nd
                            ial         information about the selection, s c l i c d ~ ~ l i ~scope,
                                                                                                   i g , or
    ~ r o c c d u ~ -oftlic
                     cs                 M O L I I ~ h a \ c bccn Iielplill to tlic reader in L I ~ ~ C I - s t a n d i n g
                             i~lsl>cction
    this rcpol-t?

2. Wliat acitiitiollal infor~liation~*clatcdto lindiligs and rccommcndations could I i a ~ c
   bccn included in tlic report to assist management in implementing c o r r c c t i ~ cactions'!

3. M'liat li,l-liiat, stylislic, 01-01-gani~ational changes might Iiavc made this 1.cport1s
   O L era1 I ~iiess;~ge 11101-eclei~rto tlic I-cader?

3. %'hat add~tionalactions could the Oflicc ol'lnspcctor Gcncl-al have taken on tlic
   issucs discussed in this repol-t \\Iiicli \\auld lia\ e been liclpli~l?

5. Plcasc include your name and tclcplionc n ~ l m b c rso that u c may contact you should
   w c h a i c any cl~~csrions
                            a b o ~ your
                                    ~ l comnicnts.


Nanic                         -
                                               -
                                               -
                                                            Date   _                   -




Wlicn you Iiavc completed this Ihrm, you may tclcSav it to the OSficc ol'lnspcctor
(;enel-al al (202) 580-0038, or you tiiay mail i t lo:

                                   Ol'licc o f Inspector General (I(;- I )
                                          Department ol' E n e l - ~ y
                                         Washington, I)(' 20585

                                       ATTN: ( ' L I s ~ o IKclalions
                                                             ~~~I-



IS y o u wish to discllss Illis rcport or your comments \sill1 a stal'l'mcmher ol'tlic Ol'licc o f
Inspector (icncral, please contact S~ldy(3arland-Smith (202) 580-7828.
Tlic OfIicc 01' Inspcctor (;cncral wants to makc llic distribution of its reports as customer Sriendly
 ancl cost cflkctivc as possible. Thcrclhrc, this report will bc available electronically through tlic
                                   Intotnet at tlie Sollowing address:

               I .S. Dcpat-tmcnt of Energy Officc of Inspector General Home Pagc
               1
                                     littp:   \\ \\ \\   .iq.ctic~-c\
                                                                   .co\

  Your comments \\si11~1
                      \,c appreciated and can be pro\ idcti on tlie C'uslo~iicrRcsponse Form.
